Audit of NSF’s Oversight of Grantee Institutions’
              Conflicts of Interest




             National Science Foundation
             Office of Inspector General




                  September 30, 2011
                    OIG 11-2-009
Table of Contents
Introduction                                                                1

NSF Did Not Receive or Manage Any Reports of Financial Conflicts of         2
Interest from Its Grantee Institutions from April 2007 Through March 2010

Grantee Conflicts Programs Reviewed Were Generally Consistent with          3
NSF’s Policy

NSF's Policy Does Not Provide Assurance of Adequate Oversight of            6
Conflicts of Interest

Conclusion and Recommendations                                              7

Summary of Agency Response and OIG Comments                                 8

Appendices

   Appendix A: Agency’s Response                                            9

   Appendix B: Objectives, Scope, and Methodology                           11
Introduction

Mission of the National Science Foundation

The National Science Foundation (NSF) is an independent Federal agency whose
mission is “to promote the progress of science; to advance the national health,
prosperity, and welfare; and to secure the national defense.” To support this mission,
NSF funds research and education across all fields of science and engineering primarily
though grants and cooperative agreements with awards going to more than 2,000
colleges, universities, and other institutions throughout the U.S. NSF’s impact on
scientific research in the U.S. is significant, accounting for about 20 percent of all
Federal support to academic institutions for basic research.

Conflicts of Interest

NSF encourages academic researchers’ and educators’ involvement with industry and
private entrepreneurial ventures, but the agency also recognizes that such interactions
carry with them an increased risk of conflicts of interest (conflicts). According to NSF’s
Conflicts of Interest Policy (Policy) 1, a conflict exists when the reviewer(s)2 reasonably
determines that a significant financial interest could directly and significantly affect the
design, conduct, or reporting of NSF-funded research or educational activities. The
importance of properly overseeing and managing these conflicts cannot be understated
as a poorly managed or hidden conflict creates the perception of misconduct or other
improper personal motives, or that public resources could be misused for private
benefit. NSF has a stewardship responsibility to ensure that conflicts are properly
identified and effectively and transparently managed. When a conflict has not been
properly managed, it undermines public trust and could undermine an agency’s
integrity.

NSF's Policy requires grantee institutions that employ more than 50 persons to maintain
a written and enforced policy on conflicts. The Policy also requires that institutions
manage, reduce, or eliminate all conflicts for each award prior to the expenditure of
award funds. Institutions are only required to notify NSF when they have determined
that they cannot satisfactorily manage a conflict. Institutions are also responsible for
ensuring that their NSF funded subawardees, contractors, or collaborators have policies
in place or otherwise meet the standards of the NSF Policy.

Concerned about NSF’s oversight of grantee financial conflicts of interest, in March
2009, the Ranking Member of the Senate Committee on Finance requested that the
NSF Office of Inspector General (OIG) conduct an audit of conflicts involving NSF’s
grants. At a minimum, he requested that the OIG determine the number and nature of
financial conflicts reported by institutions to NSF, and the extent to which NSF oversees

1
  The National Science Foundation, Proposal and Award Policies and Procedures Guide, Part II - Award
& Administration Guidelines, October 2009, NSF 10-1.
2
  NSF’s Policy defines “the reviewer” as the individual at the grantee institution responsible for reviewing
the financial disclosures, determining whether a conflict of interest exists and what conditions or
restrictions should be imposed.
                                                      1
and manages financial conflicts of interest of institutions, primary investigators, and
other senior investigators.


NSF Did Not Receive or Manage Any Reports of Financial Conflicts of
Interest from Its Grantee Institutions from April 2007 Through March
2010

According to the Policy, institutions are required to report to NSF only those conflicts
that the grantee institution cannot satisfactorily manage. We determined that NSF did
not receive any reported unmanageable conflicts from its grantee institutions within the
three-year scope of our audit, April 1, 2007 through March 31, 2010. Specifically, NSF
requires institutions to report any conflicts that it is unable to satisfactorily manage to
NSF via its FastLane reporting system. Upon review, we did not identify any reports of
unmanageable conflicts during this period. We corroborated this with NSF officials who
confirmed that they had not received any reported unmanageable conflicts from an
institution for this timeframe. In further answering the congressional request, we found
that NSF’s Policy does not explicitly require the agency to oversee or manage grantee
institutions’ conflicts. Specifically, the requirement to report an unmanageable conflict
through FastLane is only a reporting standard, and does not demand action on the part
of NSF.

While our initial request found no reports of unmanageable conflicts within the three
year scope period of our initial inquiry, NSF’s Office of General Counsel (OGC)
informed us of two reported unmanageable conflicts that it received after March 31,
2010. OGC received notification of the first unmanageable conflict in June 2010 and
the second one in November 2010. An OGC official conducted a review of both
conflicts in November 2010. She informed us that, although not required by the Policy,
she proactively contacted both institutions regarding the two reported unmanageable
conflicts. For the first reported conflict, the OGC official reviewed the award files and
confirmed that the institution had submitted an award amendment requesting the
cancellation of the grant. For the second reported conflict, the OGC official obtained
and reviewed the institution’s conflicts policy and inquired whether university officials
had made a final determination on the issue. Subsequent communications indicated
the university officials determined that the unmanageable conflict was an acceptable,
but unavoidable conflict, as no other vendor existed for the product. The university
officials communicated that they will continue to monitor the purchases to determine
that they are reasonable.




                                             2
Grantee Conflicts Programs Reviewed Were Generally Consistent
with NSF’s Policy

We expanded our audit work based on the lack of reported unmanageable conflicts for
our three-year scope period and the fact that NSF’s Policy does not require NSF to
oversee or manage conflicts. Specifically, our objective, on a sample basis, was to gain
an understanding of grantee institutions’ policies and procedures and determine their
compliance with NSF's Policy. Consistent with the Paperwork Reduction Act, we limited
our selection to nine3 NSF grantee institutions with open NSF awards during the same
three year period, April 1, 2007 through March 31, 20104. NSF’s Policy directs the
institutions to meet certain standards in administering their conflicts programs. To
determine compliance with the Policy, we identified 13 standards that must be included
in each institution’s conflicts policy and another 4 procedural standards that the
institutions must follow in implementing their conflicts program. We determined
compliance with these Policy standards by administering a survey to each of the nine
institutions comprised of questions designed to address the institution’s conflicts policies
and procedures specific to NSF’s standards. We also obtained copies of applicable
conflicts policies and procedures from the institutions. After this document review, we
conducted follow-on discussions with institution officials to corroborate our
understanding of their conflicts programs and procedures.

Our review of the conflicts programs at the nine institutions found that all nine programs
were generally consistent with NSF’s Policy. We identified a total of 17 policy and
procedural standards in the Policy and found that all 9 grantee conflicts programs
reviewed were properly implementing 11 of these standards. Some of the six omitted
standards are technical in nature. However, others, such as the exclusion of
enforcement mechanisms and sanctions, and arrangements to keep NSF OGC
informed of unmanageable conflicts, raise concern as to the adequacy of the
institutions' policies to enforce NSF’s standards and to ensure conflicts are properly
managed, reduced, or eliminated.

Table 1 on the following page outlines the 13 standards that institutions must include in
their conflicts of interest policies. We found 9 of these standards were present in all of
the institutions' policies reviewed and are indicated with an  below. Conversely, the
four standards determined to be missing from the policies are shown with an ×. The
number in parenthesis represents the number of institutions that did not have that
specific standard included in their conflicts policy. The Policy citations listed below are
from The National Science Foundation, Proposal and Award Policies and Procedures
Guide, Part II - Award & Administration Guidelines, Chapter IV: Grantee Standards,
February 2009.




3
  See Appendix B: Objectives, Scope, and Methodology on page 11 for the methodology used in selecting
the nine institutions.
4
  In the interest of time, we did not undertake the lengthy Office of Management and Budget approval
process which would have been necessary to survey more than nine institutions.
                                                  3
Table 1: NSF Standards for Grantee Institution's Conflict of Interest Policy
                                                                                              Compliance
  Source       Total standards: 13                                                            Results at 9
                                                                                              Institutions

AAG
                1   The policy is written.
                                                                                                   
Chapter IV.,
section A.1
                2   The policy is enforced.
                                                                                                   
                3   The policy should require that each investigator disclose to a
                    responsible representative of the institution all significant financial
                                                                                                   
                    interests of the investigator (i) that would reasonably appear to be
                    affected by the research or educational activities funded or
                    proposed for funding by NSF; or (ii) in entities whose financial
                    interest would reasonably appear to be affected by such activities.
                4   The policy should require that each investigator disclose to a
                    responsible representative of the institution all significant financial
                                                                                                   
                    interests of the investigator's spouse (i) that would reasonably
AAG
                    appear to be affected by the research or educational activities
Chapter IV.,
                    funded or proposed for funding by NSF; or (ii) in entities whose
section A.2.
                    financial interest would reasonably appear to be affected by such
                    activities.
                5   The policy should require that each investigator disclose to a
                    responsible representative of the institution all significant financial
                                                                                                  × (1)
                    interests of the investigator's dependent children (i) that would
                    reasonably appear to be affected by the research or educational
                    activities funded or proposed for funding by NSF; or (ii) in entities
                    whose financial interest would reasonably appear to be affected by
                    such activities.
                6   The policy must ensure that investigator has provided all required
                    financial disclosures at the time that a proposal is submitted to
                                                                                                   
AAG
                    NSF.
Chapter IV.,
section A.3.
                7   The policy must require that financial disclosures are updated
                    during the period of the award, either on an annual basis, or as
                                                                                                   
                    new reportable significant financial interests are obtained.
                8   The policy must designate one or more persons to review financial
                    disclosures.
                                                                                                   
AAG
Chapter IV.,
                9   The policy must designate one or more persons to determine
                    whether a conflict of interest exists.
                                                                                                   
section A.4    10   The policy must designate one or more persons to determine what
                    conditions or restrictions, if any, should be imposed to manage,
                                                                                                   
                    reduce or eliminate such conflict of interest.
AAG            11   The policy includes adequate enforcement mechanisms.
Chapter IV.,
                                                                                                 × (1)
section A.5
               12   The policy provides for sanctions where appropriate.
                                                                                                 × (1)
AAG            13   The policy includes arrangements to keep NSF-OGC appropriately
Chapter IV.,        informed if the institution finds it is unable to satisfactorily manage
                                                                                                 × (4)
section A.6         a conflict of interest.


Similarly, the table below outlines the 4 procedural standards that institutions must
follow when implementing their conflicts program. The compliance results are shown
with an  if all 9 institutions indicated that they had these procedures in place. The
procedural standards that were not in place at all 9 institutions are shown with an ×.
                                                     4
The number in parenthesis represents the number of institutions that did not have that
specific standard included in their conflicts policy. The Policy citations listed below are
from The National Science Foundation, Proposal and Award Policies and Procedures
Guide, Part II - Award & Administration Guidelines, February 2009.
Table 2: NSF Standards for Grantee Institution's Conflict of Interest Procedures
                                                                                            Compliance
   Source         Total Standards: 4                                                        Results at 9
                                                                                            Institutions
                   1   All conflicts of interest for each award are managed, reduced
AAG Chapter
                       or eliminated prior to the expenditure of the award funds.
                                                                                               × (1)
IV., section
A.1. This
standard was
                   2   The institution must take reasonable steps to ensure that its
                       subawardees, contractors or collaborators have their own
                                                                                                
in effect after        policies in place that meet NSF's COI policy standards or that
January 4,             investigators working at these entities follow the policies of the
2010                   primary institution.
GPM Chapter        3   Grantee notifications of conflict of interest that cannot be
V, section             managed, reduced or eliminated must be submitted
                                                                                               × (2)
510 f.,                electronically via the NSF FastLane System.
Footnote 11,
and AAG
Chapter IV.
Section A.6,
Footnote.
GPM Chapter
V, section
                   4   The institution maintains records of all financial disclosures
                       and of all actions taken to resolve conflicts of interest for at
                                                                                                
510 g., and            least 3 years beyond date of grant termination/completion, or
AAG Chapter            until the resolution of any NSF action involving those records,
IV., section           whichever is longer.
A.7


Officials from the surveyed institutions cited various reasons for the omission of the NSF
required elements from their conflicts policies and procedures. At least one of these
institutions stated that clarification on its conflicts standards is provided through other
institution documents, which its conflicts policy does not directly reference. One
institution claimed lack of familiarity with the process of reporting unmanageable
conflicts because it has not had a situation in which it could not manage, reduce or
eliminate the conflict. As a result of this audit, officials from two institutions that were
missing a Policy or procedure standard recognized that their conflicts programs could
be enhanced. Institution officials indicated that actions will be taken to revise and
incorporate the missing NSF Policy standards into their conflicts programs.




                                                       5
NSF’s Policy Does Not Provide Assurance of Adequate Oversight of
Conflicts of Interest

While answering the audit objectives, we identified aspects of NSF's existing Policy and
its oversight of conflicts that concerned us. Based on its current Policy, NSF has limited
information on the institutions' implementation of their conflicts program or the methods
used to manage reported conflicts. Specifically, NSF is not required to review or follow-
up with the institutions on reported unmanageable conflicts. NSF is also not required to
provide monitoring and oversight of the institution's implementation of their conflicts
programs. Finally, the institutions are not required to notify NSF when an institution
permits research to continue without imposing conditions or restrictions on an identified
conflict.

NSF's Policy does not require it to take any action on reported unmanageable
conflicts. While NSF's Policy obligates institutions to keep NSF informed of
unmanageable conflicts, it does not require NSF to take any action with respect to such
conflicts. NSF informed us that it does not have authority to provide advice or question
decision-making when an institution determines that a conflict is unmanageable. We
inquired about the intent behind institutions reporting unmanageable conflicts if NSF will
take no action. NSF officials stated that the reporting standard was originally included
in the Policy to see how the process would work and to understand the number of
conflicts that were unmanageable. While we understand NSF's desire to enable
institutions to create their own system(s) for managing conflicts, there is a risk
associated when the institutions cannot manage a conflict and NSF asserts that it
cannot provide guidance or opinion to address the conflict. NSF has a stewardship
responsibility over Federal award funds. As such, it should gain an understanding of
the circumstances surrounding the unmanageable conflict and assist the institution with
developing a method to manage the conflict or give consideration to terminating the
related award(s).

NSF is not required to provide monitoring and oversight of the institutions’
implementation of their conflicts programs. NSF’s Policy places the responsibility of
managing conflicts of interests solely with the grantee institutions. The agency utilizes a
certification process at the time of proposal, whereupon each applicant institution
certifies that the institution has implemented a written and enforced conflicts policy that
is consistent with the provisions of NSF’s Policy. The inclusion of this language implies
a responsibility for NSF to monitor and oversee the institutions to evaluate whether an
institution’s policy does, in fact, meet the content standards. Currently, neither NSF’s
Policy Office nor OGC conducts reviews of an institution’s conflicts policy.

OGC informed us that the primary responsibility for the effective management of an
institution’s individually tailored investigator financial disclosure policy rests with the
institution. Based on our limited review of nine institutions' policies, we found
deficiencies which suggest that other institutions may not be fully implementing NSF's
standards. However, NSF's Policy does not require it to provide monitoring and
oversight of the institutions’ conflicts programs or training and outreach on NSF Policy
standards. As a result, NSF cannot ensure that these institutions are properly
managing conflicts that could affect the design, conduct, or reporting of NSF-funded
                                              6
research or educational activities. The implementation of a risk-based strategy to
monitor and oversee institutions’ policies and procedures including outreach and
possible training will help ensure the institutions’ conflicts programs comply with NSF’s
Policy.

NSF’s Policy does not require NSF to be notified of situations when an institution
has decided to allow research to proceed without imposing conditions or
restrictions on an identified conflict. Under certain circumstances, permitting
research to continue without restrictions may be justified; however, given the risk such a
"waiver" brings to the agency, NSF should be informed of all such instances so it can
assess the situation and ensure that the decision is appropriate.

Specifically, the Policy states that:

      “[i]f the reviewer(s) determines that imposing conditions or restrictions
     would be either ineffective or inequitable, and that the potential negative
     impacts that may arise from a significant financial interest are outweighed
     by interests of scientific progress, technology transfer, or the public health
     and welfare, then the reviewer(s) may allow the research to go forward
     without imposing such conditions or restrictions.”

NSF officials stated that it is the institution’s responsibility to review the conflicts and
determine those situations where the research may continue without imposing
conditions or restrictions. NSF’s Policy does not require the institutions to notify NSF
when this occurs or provide information regarding the unmanageable conflict.
Therefore, NSF is unaware of the frequency and under what circumstances research
was allowed to continue. However, implementing a reporting process whereby
institutions notify NSF of circumstances when they are considering allowing research to
proceed without imposing conditions or restrictions provides NSF information as to the
volume and frequency of occurrence, and also enables NSF to assess the
appropriateness of the institutions’ actions. Further, in a discussion with NSF officials,
the OIG auditors suggested implementing a tracking mechanism for these types of
situations. NSF officials responded that it was an interesting concept and they could
consider it. Such an approach would provide the institutions with the flexibility to
address conflicts, while enabling NSF to ensure that this discretion is not abused and to
maintain the objectivity and integrity of the award. It is critical that NSF, as the funding
agency, be involved when a grantee allows NSF-funded research or educational
activities to continue when unmitigated conflicts exist.


Conclusion and Recommendations
Because NSF’s Policy does not require NSF to oversee or manage its grantee
institutions’ conflicts programs, NSF cannot be not assured that the institutions are
properly managing, reducing, or eliminating conflicts or that unmanageable conflicts are
being reported to NSF.


                                             7
We recommend that NSF have a procedure in place to ensure that conflicts at its
grantee institutions are managed, reduced, or eliminated. This should include
developing:

 1. a method or oversight process to ensure that institutions have conflicts policies and
    procedures in place that are consistent with NSF’s Policy and that the institutions
    are implementing them appropriately. The selected approach could be risk based
    or on a sample basis and could include outreach and/or conflicts training;
 2. a procedure to oversee unmanageable conflicts. This could include the
    development of a mechanism for tracking reported unmanageable conflicts and a
    requirement for NSF to ensure that the institution addresses the conflict; and
 3. a procedure requiring a) the institutions to notify NSF of those situations when an
    institution is considering allowing research to proceed without imposing conditions
    or restrictions when a conflict exists and b) NSF to assess the volume of related
    conflicts to determine if further action is needed by NSF.



Summary of Agency Response and OIG Comments
In its written response to the draft of this report, NSF concurred that additional
oversight, while not required by the current COI Policy, might be beneficial.
Accordingly, NSF will take steps to determine how best to ensure institutions have COI
policies and procedures in place that are consistent with NSF’s Policy. NSF will also
develop an appropriate plan of action to ensure that sufficient oversight of
unmanageable conflicts takes place and that it is informed of instances where
institutions may allow research to continue without the imposition of conditions or
restrictions.

We consider management’s response and planned actions to be responsive to our
recommendations. We will work with NSF officials on their proposed implementation
actions detailed in a Corrective Action Plan.

We have included the full text of NSF's response in Appendix A.




                                           8
Appendix A: Agency’s Response




                          9
10
Appendix B: Objectives, Scope, and Methodology
Pursuant to a request by the Ranking Member of the Senate Committee on Finance, the
objectives of our audit were, at a minimum, to determine the number and nature of
financial conflicts of interest (conflict) reported by grantee institutions to NSF, and the
extent to which NSF oversees and manages conflicts of grantee institutions, primary
investigators, and other senior investigators. We also, on a sample basis, gained an
understanding of grantee institutions’ (institution) compliance with NSF's conflicts of
interest policy (Policy).

We conducted this performance audit from April 2010 to September 2011, at NSF in
Arlington, Virginia. To answer our objectives, we obtained information on
unmanageable conflicts reported to NSF's Office of the General Counsel (OGC) and
through NSF's FastLane reporting system for the three year scope period of April 1,
2007 through March 31, 2010. We gained an understanding of NSF's oversight and
management responsibilities regarding reported unmanageable conflicts.

We also administered a survey to nine NSF grantee institutions with open NSF awards
during the same three year period to gain an understanding of the management of their
conflict program in accordance with NSF's Policy. We selected the 9 institutions, from
the approximately 3,400 institutions with open NSF awards, based on conflicts issues
identified in prior Federal audits and reviews, Single Audit reports5, input from NSF OIG
Investigators and NSF OGC officials, representation of public and private institutions,
and geographic location. Based on the sample size and methodology, we cannot and
do not project the results from our testing of the nine institutions to the entire population
of institutions with open awards for the three year audit scope period.

To meet our objectives, we:

         Obtained and reviewed relevant laws, regulations, policies, and procedures,
         Obtained and reviewed prior Federal audits and reviews,
         Communicated with the NSF OIG Office of Investigations,
         Consulted with NSF OIG Legal Counsel,
         Interviewed NSF officials,
         Surveyed nine institutions on their conflicts program,
         Obtained and reviewed relevant conflicts policies and procedures for the nine
          institutions surveyed, and
         Communicated with institution officials.

We reviewed the nine institutions’ conflicts policies and procedures for compliance with
provisions of The National Science Foundation, Proposal and Award Policies and
Procedures Guide, Part II - Award & Administration Guidelines, Chapter IV Grantee
Standards. We found that all nine grantee institutions surveyed primarily implemented
5
    PL 104-156, “Single Audit Act Amendments of 1996”

                                                        11
appropriate conflicts programs in accordance with NSF's Policy. While exceptions were
identified, none were considered significant to the overall implementation of the
institutions’ conflicts programs.

We also obtained an understanding of the management controls over NSF’s process for
implementing its conflicts program through interviews with NSF officials and staff. We
found that NSF is not responsible for overseeing or managing institution conflicts. We
did not identify any instances of fraud, illegal acts, violations, or abuse.

During the course of this audit, the auditors relied on information and data received
from NSF in electronic format that had been entered into a computer system or that
resulted from computer processing. We tested the reliability of NSF’s computer-
processed data by corroborating the results with NSF officials independent of the
computer system.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We held an exit conference with NSF's Office of the General Counsel on September 6,
2011.




                                           12
